No.

IN THE

Supreme Court of the United States
EUGENE SONNIER, II,
Petitioner,
v.
CATHOLIC FOUNDATION OF THE DIOCESE OF
LAYFETTE, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 4,113 words, excluding the parts of the
petition that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 9, 2019

s/ G. Karl Bernard
G. KARL BERNARD

